Nos. 20-543, 20-544
In the
Supreme Court of the United States
JANET L. YELLEN, SECRETARY OF TREASURY,
Petitioner,
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, et al.,
Respondents.
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., et al.,
Petitioners,
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, et al.,
Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I
certify that the Brief of Amici Curiae U.S. Senators
Lisa
Murkowski
and
Dan
Sullivan,
and U.S. Congressman Don Young in Support of
Petitioners contains 7744 words, excluding the parts
of the brief that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.

